APPENDIX A

In the Supreme Court of Missouri
September Session, 2020
State ex rel. Jerome Berry,
Petitioner,
No. SC98532
HABEAS CORPUS
St. Francois County Circuit Court No. 19SF-CC00002
Eastern District Court of Appeals No. ED108860
Teri Lawson,
Respondent.
Now at this day, on consideration of the petition for a writ of habeas corpus herein to the
said respondent, it is ordered by the Court here that the said petition be, and the same is hereby
denied.
STATE OF MISSOURI-Sct.
I, BETSY AUBUCHON, Clerk of the Supreme Court of the State of Missouri, certify that
the foregoing is a full, true and complete transcript of the judgment of said Supreme Court, entered
of record at the September Session thereof, 2020, and on the 1st day of September, 2020, in the
above-entitled cause.
WITNESS my hand and the Seal of the
Supreme Court of Missouri, at my office in
the City of Jefferson, this 1st day of
September, 2020.

, Clerk

, Deputy Clerk

1a

JUDGMENT

MANDATE

vs.

Supreme Court of Missouri

APPENDIX A

2a

APPENDIX B

3a

APPENDIX C

FILED
12/12/2019
VICKI J. WEIBLE, CIRCUIT CLERK
ST. FRANCOIS COUNTY, MO

IN THE CIRCUIT COURT OF ST. FRANCOIS COUNTY
STATE OF MISSOURI
JEROME E BERRY,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
TERI LAWSON,
Respondent.

Case No. 19SF-CC00002

MEMORANDUM, ORDER, AND JUDGMENT
Introduction
The matter is before the Court on Jerome Berry’s petition for a writ of
habeas corpus, Respondent’s response, and Petitioner’s reply. On November
15, 2019, the Court held an evidentiary hearing where Petitioner presented his
own testimony and the parties agreed to admit the exhibits attached to
Petitioner’s petition and Respondent’s response. After consideration of the
evidence and arguments submitted, the Court denies the petition for a writ of
habeas corpus and enters judgment in Respondent’s favor.
Background
Petitioner Jerome Berry is an inmate at the Farmington Correctional
Center in Farmington, Missouri. In 1981, Berry committed two counts of
forcible rape, attempted first-degree robbery and kidnapping. A St. Louis
County jury convicted Berry, and the circuit court sentenced him to 30 years’
1

4a

APPENDIX C
imprisonment for both rape counts, fifteen years’ imprisonment for
kidnapping, and fifteen years’ imprisonment for attempted first-degree
robbery. The court ordered the sentences for rape and kidnapping to run
concurrently and the fifteen-year sentence for robbery to run consecutively to
the other sentences.
Because Berry committed forcible rape, a sexual assault offense as
defined by § 589.015, RSMo., he cannot be eligible for parole or conditional
release until he completes the Missouri Sex Offender Program (MOSOP). §
589.040, RSMo. 2011. Berry admits that he has failed to complete MOSOP. As
a result, the Missouri Parole Board (the Board) was required to cancel his
conditional release date. § 589.040, RSMo.
At the evidentiary hearing, Berry admitted that he had been convicted
of rape, attempted robbery, and kidnapping, and that he has failed to complete
MOSOP. Berry testified that he knows of other inmates who have not
completed MOSOP, but have been paroled anyway, or who have been allowed
to commit MOSOP while on parole release.1

Berry also testified that he failed to complete phase two of MOSOP in 2007
and that he has tried to be readmitted to the program since then, but without success.
In his petition, Berry did not allege that Respondent is unfairly denying him access
to MOSOP, so no such claim is before the Court. Even if it were, the Court would find
that Berry has failed to present sufficient evidence to show he has been unfairly
denied access to MOSOP because Berry did not present any evidence concerning why
he has been unable to reenter the program.
1

2

5a

APPENDIX C
Respondent introduced at affidavit from the Board’s lead parole analyst,
Steven Mueller. Mr. Mueller’s affidavit states that that the inmates Berry
mentioned, Solly Bauer and Jody Davis, were not required to complete MOSOP
before parole release because they did not commit sexual assault offenses as
defined by § 589.015. Mr. Mueller’s affidavit also states that Chad M. White, a
third inmate mentioned by Berry, was required to complete MOSOP before
parole release because he did commit a sexual assault offense and that White
did complete MOSOP as required. Berry does not contest this evidence.
In his petition, Berry alleges that the Board does not consistently apply
§ 589.040’s bar on conditional release eligibility to other inmates. For the
reasons set forth below, Berry’s allegations fail to warrant habeas relief.
Discussion
In his petition, Berry claims that the Board applies § 589.040 in a
discriminatory matter in that it has released two other inmates, Solly Bauer
and Jody Davis, without requiring them to complete MOSOP. Berry also
alleges that the Board “may” have released a third inmate, Chad M. White,
without requiring him to complete MOSOP. Berry alleges the Board has
violated his equal process rights because he is black and Bauer, Davis, and
White are white. However, at the evidentiary hearing, Berry failed to present
any evidence about the races of Bauer or Davis.
3

6a

APPENDIX C
Berry’s allegations fail as a matter of law because Bauer and Davis did
not commit sexual assault offenses as defined by § 589.015, RSMo., so they are
eligible for conditional release under Missouri law. And ased on Lead Analyst
Mueller’s affidavit, Department records show that White did complete MOSOP
before he was paroled. Berry committed a sexual assault offense and failed to
complete MOSOP, so he is not eligible for conditional release and the Board
was required by statute to cancel his conditional release date. § 589.040, RSMo.
Section 589.040 requires the Department to develop a program for the
treatment, education and rehabilitation of inmates serving sexual assault
offenses. The Department developed the Missouri Sex Offender Program to
fulfill that requirement. Section 589.040 also requires all inmates convicted of
sexual assault offenses to complete MOSOP before becoming eligible for parole
or conditional release. § 589.040.2, RSMo. (2011).
For the purposes of § 589.040.2, sexual assault is defined as:
(a) The acts of rape in the first or second degree,
forcible rape, rape, statutory rape in the first degree,
statutory rape in the second degree, sexual assault,
sodomy in the first or second degree, forcible sodomy,
sodomy, statutory sodomy in the first degree, statutory
sodomy in the second degree, child molestation in the
first, second, third, or fourth degree, deviate sexual
assault, sexual misconduct, sexual misconduct in the
first, second, or third degree, sexual abuse, and sexual
abuse in the first or second degree, or attempts to
commit any of the aforesaid, as these acts are defined
in chapter 566;
4

7a

APPENDIX C
(b) The act of incest, as this act is defined in section
568.020;
(c) The act of abuse of a child under section
568.060, which involves sexual contact;
(d) The act of use of a child in a sexual performance;
and
(e) The act of enticement of a child, as defined in
section 566.151, or any attempt to commit such act.
§ 589.015, RSMo. (2011). Because Berry committed two counts of forcible rape,
he committed a sexual assault offense that requires him to complete MOSOP
before he can be eligible for parole or conditional release. § 589.040.2 (2011);
The Board has no discretion to allow Berry to be paroled or conditionally
released unless he first completes MOSOP. Reynolds v. Missouri Board of
Probation and Parole, 468 S.W.3d 413, 421 (Mo. App. W.D. 2015) (the current
version of § 589.040.2 “eliminated the Board’s discretion in determining
whether to extend conditional release dates” for inmates required to complete
MOSOP who fail to do so).
The other inmates Berry points to, Solly Bauer and Jody Davis, did not
commit sexual assault offenses and were therefore not statutorily required to
complete MOSOP. Berry alleges that Bauer was convicted of first-degree
endangering the welfare of a child and Davis was convicted of possession of
child pornography. Neither of these offenses qualifies as a sexual assault under
§ 589.015, so neither inmate was statutorily required to complete MOSOP in
order to be eligible for conditional release. § 589.040.2. These inmates were not
5

8a

APPENDIX C
similarly situated to Berry because the Board had discretion to release them,
but the Board had no discretion to release Berry because he failed to complete
MOSOP as § 589.040 requires.
Berry also alleges that another inmate, Chad M. White, was convicted of
first-degree statutory sodomy and failing to register as a sex offender and “may
not have completed MOSOP prior to his release.” But the evidence shows White
was required to complete MOSOP under § 589.040.2 because he committed a
sexual assault offense, and White did successfully complete MOSOP before he
was granted release on parole.
Berry cannot show that the Board violated his due process rights because
he has no liberty interest in conditional release and no right to be conditionally
release before the expiration of his sentences. Johnson v. Missouri Board of
Probation and Parole, 92 S.W.3d 107, 114 (Mo. App. W.D. 2002). Therefore,
due process protections are not invoked when the Board extends or cancels his
conditional release date. Id.
Berry cannot show that the Board violated his equal protection rights
because he cannot identify a similarly situated group that was treated
differently than him or otherwise show that the Board discriminated against
him. The Equal Protection Clause directs that “all persons similarly
circumstanced shall be treated alike.” Plyler v. Doe, 457 U.S. 202, 216 (1982).
6

9a

APPENDIX C
But “[t]he Constitution does not require things which are different in fact or
opinion to be treated in law as though they were the same.” Id. Thus, the equal
protection analysis focuses on classifications of persons or groups. Doe v.
Phillips, 194 S.W.3d 833, 845 (Mo. 2006).
“[E]qual protection of the laws must coexist with the practical necessity
that most legislation classifies for one purpose or another, with resulting
disadvantage to various groups or persons.” Id. (quoting Romer v. Evans, 517
U.S. 620, 631 (1996)). For this reason, not all distinctions in treatment of
individuals or groups are invalid. Id. A law may properly treat different groups
differently, but it may not treat similarly situated persons differently unless
such differentiation is adequately justified. Id. (citing Creason v. City of Wash.,
435 F.3d 820, 823 n. 3 (8th Cir. 2006)).
Berry has failed to show that the Board has applied § 589.040.2 in a
discriminatory manner. Instead, Berry’s allegations show that the Board
follows the statute as required. The Board must require all inmates who
commit sexual assault offenses to complete MOSOP before they can be eligible
for parole or conditional release. § 589.040.2, RSMo.; Reynolds, 468 S.W.3d at
421.
In his reply pleading, Berry argues that inmates Bauer and Davis are
similarly situated to him because Department policy requires them to
7

10a

APPENDIX C
participate in MOSOP. That argument fails because although the inmates are
required to participate in MOSOP, the Board has statutory discretion to allow
them parole or conditional release even if they fail to complete MOSOP. For
inmates who did not commit a sexual assault offense, the Board has discretion
on whether or not to require MOSOP for the inmates’ treatment, education,
and rehabilitation. Depauw v. Luebbers, S.W.3d 805, 807 (Mo. App. E.D. 2009).
The Board has no such discretion with Berry and other offenders who commit
sexual assault offense.
The facts submitted in this case show the difference between the two
categories of offenders. The Department of Corrections requires inmates such
as Bauer and Davis to participate in MOSOP because their offenses were
sexual in nature, even though they were not sexual assault offense as defined
by statute. Because these inmates are not statutorily required to complete
MOSOP before they are released, the Board can allow them to complete sexual
treatment programs after they are released.
Berry and other offenders who commit sexual assault offense cannot be
released on parole or conditional release unless they complete MOSOP.
Reynolds, 468 S.W.3d at 421. The Board has no discretion to allow Berry to
complete MOSOP while on parole release. Id. Berry is not similarly situated
to offenders who did not commit sexual assault offenses as defined by statute,
8

11a

APPENDIX C
so the law may treat him differently than those offenders. Doe v. Phillips, 194
S.W.3d at 845.
Section 589.040.2 imposes stricter requirements on offenders who
commit more serious sex offenses. The law furthers the State’s valid interest
in rehabilitating dangerous sex offenders before releasing them back into the
general population. The law does not treat any classes of people different and
only imposes requirements based upon crimes committed. There is no evidence
that § 589.040.2 or the Board’s application of it discriminates against a
protected class. Berry has failed to establish that the Board has violated his
due process or equal protection rights.
For these reasons, the Court finds that Petitioner Jerome Berry is
lawfully confined in Respondent’s custody. The Court denies the petition for a
writ of habeas corpus and enters judgment in Respondent’s favor.

12-11-19

Date

Patrick L. King, Judge

9

12a

